<html>
<title> - NOMINATION OF VICE ADMIRAL MICHAEL McCONNELL TO BE DIRECTOR OF NATIONAL INTELLIGENCE</title>
<body><pre>[Senate Hearing 110-225]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 110-225
 
                   NOMINATION OF VICE ADMIRAL MICHAEL
                      McCONNELL TO BE DIRECTOR OF
                         NATIONAL INTELLIGENCE

=======================================================================

                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 1, 2007

                               __________

      Printed for the use of the Select Committee on Intelligence


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



38-655 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]
            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
              CHRISTOPHER S. BOND, Missouri, Vice Chairman
DIANNE FEINSTEIN, California         JOHN W. WARNER, Virginia
RON WYDEN, Oregon                    CHUCK HAGEL, Nebraska
EVAN BAYH, Indiana                   SAXBY CHAMBLISS, Georgia
BARBARA A. MIKULSKI, Maryland        ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 RICHARD BURR North Carolina
SHELDON WHITEHOUSE, Rhode Island
                     HARRY REID, Nevada, Ex Officio
                 MITCH McCONNELL, Kentucky, Ex Officio
                    CARL LEVIN, Michigan, Ex Officio
                    JOHN McCAIN, Arizona, Ex Officio
                              ----------                              
                   Andrew W. Johnson, Staff Director
                Louis B. Tucker, Minority Staff Director
                    Kathleen P. McGhee, Chief Clerk
                                CONTENTS

                              ----------                              

                            FEBRUARY 1, 2007
                           OPENING STATEMENTS

Rockefeller, Hon. John D., Chairman, a U.S. Senator from West 
  Virginia.......................................................     1
Bond, Hon. Christopher S., Vice Chairman, a U.S. Senator from 
  Missouri.......................................................     4
Warner, Hon. John, a U.S. Senator from Virginia..................     5
    Prepared statement...........................................     7

                                WITNESS

McConnell, Vice Admiral Michael, U.S. Navy retired, Director of 
  National Intelligence-Designate................................     8

                         SUPPLEMENTAL MATERIAL

Senate Select Committee on Intelligence Questionnaire for 
  Completion by Presidential Nominees............................    40
Letter to Hon. John D. Rockefeller IV from Cusick, Robert I., 
  Director, Office of Government Ethics,.........................    66
Financial disclosure report of John M. McConnell.................    67
Letter to Corin R. Stone, Designated Agency Ethics official, 
  Office of the Director of National Intelligence from John M. 
  McConnell......................................................    81


                   NOMINATION OF VICE ADMIRAL MICHAEL



                      McCONNELL, TO BE DIRECTOR OF



                         NATIONAL INTELLIGENCE

                              ----------                              


                       THURSDAY, FEBRUARY 1, 2007

                               U.S. Senate,
                  Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:33 p.m., in 
room SD-106, Dirksen Senate Office Building, the Honorable Jay 
Rockefeller (Chairman of the Committee) presiding.
    Committee Members Present: Senators Rockefeller, Feinstein, 
Wyden, Mikulski, Feingold, Whitehouse, Bond, Warner, Hagel, 
Chambliss, Hatch, Snowe, and Burr.
    Also Present: Senator Collins.
    Chairman Rockefeller. This hearing will come to order.
    There is one formality that we need to dispose of before we 
can proceed. The Committee received Admiral McConnell's 
financial disclosure forms and background material last Friday. 
The rules require that we wait 7 days after receipt of the 
material to hold a hearing unless the Committee votes to waive 
the rule. So, Admiral, we're just going to wait 7 days, or 
unless there's objection--there is no objection--that we will 
just waive that. I don't think I hear any objection, and 
therefore the rule----
    Vice Chairman Bond. I was going to make the motion. So it 
is agreed.
    Chairman Rockefeller. It's agreed.

OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER, CHAIRMAN, A U.S. 
                   SENATOR FROM WEST VIRGINIA

    Welcome to all. And we begin today with a very serious 
confirmation, and that is for Mike McConnell to be the next 
Director of National Intelligence.
    Before we get into the substance of the statements and the 
questions, I want to recognize Admiral McConnell's wife Terry, 
who is accompanying him, and ask Admiral McConnell if he would 
like to introduce the rest of his family here with him today.
    Admiral McConnell. Well, thank you, sir, very much.
    You just mentioned my wife who's sitting just here in the 
white coat. And next to her is Christine, our daughter. And 
next to Christine is Mark, our son, his wife, Ann Marie, and 
two of our seven grandchildren. This is Alana and Taylor.
    Chairman Rockefeller. Good. I welcome them too.
    And, of course, we welcome our valued colleague, the 
distinguished Senator from West Virginia--I mean, senior 
Senator from Virginia--who is obviously a valued--you see, it 
always goes the other way. Usually people call West Virginia, 
Virginia.
    Senator Warner. We in Virginia will take you back. You ran 
away, but we'll take you back.
    [Laughter.]
    Chairman Rockefeller. Senator, we seceded for a good and 
just cause. And Senator Warner is going to be introducing 
Admiral McConnell in just a moment.
    Admiral McConnell appears before us after a long absence 
from Government service. He has not, however, been absent from 
the field of intelligence. He served in the U.S. Navy for 29 
years, rising to the rank of vice admiral, which is, I am told, 
a very rare accomplishment for an intelligence officer.
    During the period of public service, he served as Director 
of Intelligence on the Joint Staff during the Persian Gulf war 
and as Director of the National Security Agency, our Nation's 
largest intelligence agency.
    Upon retiring from the Navy, Admiral McConnell went to work 
for Booz Allen & Hamilton, where he has been a senior vice 
president for intelligence and national security. He is also 
currently chairman and chief executive officer of the 
Intelligence and National Security Alliance, an industry group 
that works with the Government looking for ways to solve some 
of our complex intelligence problems.
    Admiral McConnell, I was particularly interested in reading 
in your responses to our questions that we sent you prior to 
this hearing on how you came to be an intelligence officer. As 
you described it, after serving a tour in combat in Vietnam, 
you wanted to know how to provide better intelligence to those 
who are, in fact, in combat.
    This tells me some very important things about you. First, 
you know what combat is really like and how important it is to 
try to keep the young men and women serving in our military out 
of harm's way whenever possible.
    Secondly, you know how important intelligence is to our 
military commanders and to those who make the decisions 
affecting our national security.
    And finally, it tells me that you are an intelligence 
professional by choice, not by accident. And that means you 
have a huge dedication to the field.
    If you are confirmed, you'll be taking over an experiment 
still in its early stages, an experiment intended to make sure 
that U.S. intelligence provides policymakers, our military 
commanders, and other decisionmakers with the best information 
available.
    While the Congress passed the Intelligence Reform and 
Terrorism Prevention Act of 2004 in the wake of the 9/11 
Commission report and this Committee's report on problems with 
prewar intelligence related to Iraq, those were only the most 
recent in a long line of studies and reports describing the 
structural problems in the intelligence community.
    The question we will have for you today, and the challenge 
you will face if confirmed, will be to figure out if we got it 
right. I'm convinced that separating the DNI from the day-to-
day operation of the Central Intelligence Agency was the right 
step. For the first time ever, we now have somebody whose 
primary responsibility is organizing the different pieces of 
the intelligence community. I also think this arrangement 
benefits the CIA since it now has the undivided attention of 
its Director.
    But beyond the act of separating the two jobs, it is less 
clear whether the structure of the DNI office is ideal to 
accomplish its mission--hence, a work in progress. We did not 
pull the technological collection agencies out of the Defense 
Department and we did not give the DNI direct authority over 
the main collection or analytical components of the community.
    We gave the DNI the authority to build the national 
intelligence budget, but we left the execution of the budget 
with the agencies. We gave the DNI tremendous responsibilities. 
The question is, did we give the position enough authority for 
him to exercise those responsibilities?
    I will also want to hear from you today about how you 
envision your relationship with us, and this will be an 
important line of questioning for me. The Committee is charged 
with overseeing the operation of the intelligence community. 
It's a job that Vice Chairman Bond and I and all the Members of 
our Committee take very, very seriously. We care very much 
about intelligence--that intelligence work for our Nation and 
for our fighting forces. And therefore, it's important that our 
relationship be a comfortable and frank one.
    Congressional oversight is sometimes viewed only as a 
criticism. And at times, we do criticize, but it is our goal to 
make the intelligence community the best that it can be. And 
oversight should be cooperative, not confrontational. In order 
to accomplish this goal, we will have to work together to 
ensure that this Committee has the access to the materials it 
needs to conduct oversight.
    It is no secret that neither Vice Chairman Bond nor I have 
been happy in the past with decisions by some to restrict 
access to required information by our Members and staff. 
Depriving our Committee of the information it needs, or over-
restricting access to the information we need, not only weakens 
congressional oversight of secretive intelligence programs, it 
generates unnecessary suspicion and, worst of all, undercuts 
the effectiveness of activities generally.
    Vice Chairman Bond and I are committed to working together 
to overcome this problem. And the Vice Chairman, I have to say, 
has been extremely effective on that so far. But we will need 
your help, sir.
    In our discussion today, I'm not interested in rehashing 
what has or has not transpired in the past. I want to establish 
a positive and collaborative relationship for the future. I 
look forward to getting your views on these and other issues 
that you are going to be facing.
    I now recognize Vice Chairman Bond.

OPENING STATEMENT OF HON. CHRISTOPHER S. BOND, VICE CHAIRMAN, A 
                   U.S. SENATOR FROM MISSOURI

    Vice Chairman Bond. Thank you very much, Chairman 
Rockefeller.
    I join in welcoming you, Admiral McConnell, and your fine 
family. I had an opportunity to meet briefly with your lovely 
granddaughters. I know that's a source of great pride. I 
associate myself with all the things the Chairman has said. And 
we are working together. We do need access and we look forward 
to a constructive relation.
    But I have a few comments on which I wish to elaborate. And 
that is the fact that, as has already been said, the 
intelligence community has come a long way since 9/11. 
Significant intelligence and Government reforms have been 
enacted, including creation of the Director of National 
Intelligence.
    The DNI is and should be central to transforming the 
community. In the face of unknown and known enemies who are 
determined to cause us harm, we need strong, decisive 
leadership to make sure we pull together the IC's considerable 
resources, talents, and capabilities.
    It's certainly no secret to anybody I've talked to, or who 
has watched the record, that I specifically voted against the 
intelligence reform legislation 2 years ago because I believe 
it gave the DNI a whole lot of responsibility without the 
requisite authority. I had hoped for more robust legislation.
    If you're confirmed, Admiral McConnell, as I am sure you 
will be, I expect and hope you will give this Committee your 
full unvarnished opinion about your authority so that we can 
ensure that the one we hold responsible for intelligence 
matters has the requisite authority.
    Mr. Chairman, I believe the President has made an excellent 
choice in nominating Admiral McConnell. With the long and 
distinguished career that you mentioned, he certainly has the 
background. He and I have had time to spend together in my 
office after the nomination. We discussed the progress and 
areas where further reform is needed. He testified that he 
shared my concern with the fact that within the IC--the 
intelligence community--there are no fully auditable financial 
statements and he plans to change that and we want to work with 
him.
    I believe Mike McConnell has the right background for this 
important job and is the right choice. As an intelligence 
officer in the U.S. Navy and numerous leadership positions, 
including Director of the NSA and his private sector work, I 
think he brings not only subject matter expertise to this 
important job, but leadership. And Admiral, I look forward to 
hearing about your ideas on continuing the transformation of 
the community.
    Human intelligence--absolutely essential. Our enemies are 
agile and diverse. We need to stay ahead of them and prevent 
them from realizing their evil intentions, but we need better 
human intelligence which does not necessarily mean more human 
intelligence. And ideology--I believe that the global war on 
terrorism must be regarded largely as an ideological war. 
Twenty percent of the war is kinetic, and I fully support that 
in many ways, but also 80 percent is ideological and we're 
going to have to win on both fronts. I'm concerned we haven't 
been doing enough to focus on the ideological front raised by 
the radical Islamist fundamentalist terrorists.
    Next, information sharing and analysis. Our officers are 
doing good work. But I think they can do better, particularly 
when sharing intelligence across the IC. You've written about 
these ideas, and I look forward to hearing more about them.
    And financial management, again, right now the IC cannot 
tell us exactly how the National Intelligence Program funds are 
being spent, and I believe you and I regard that as 
unacceptable.
    And in reference to the Committee issues that the Chairman 
raised, we're well aware that the intelligence community has 
learned important lessons about the Iraq WMD failure and made 
important changes. But we've also learned important lessons 
from that failure, and as a result, we're changing our approach 
to oversight.
    When the 2002 NIE on Iraq WMD programs was provided, there 
was no evident problems with the document. However, at that 
time, the Committee did not examine the underlying intelligence 
that supported it. After the start of the war, we did examine 
the underlying intelligence, and we quickly realized that the 
NIE's characterization and interpretation of this intelligence 
was overstated, and in many cases just plain wrong. I have said 
before that Congress demanded that immediately in the worst 
way, and that's unfortunately how we got it.
    We are not going to accept national security issue judgment 
without examining the intelligence underlying the judgments, 
and I believe this Committee has an obligation to perform due 
diligence on such important documents.
    When we ask for documents, however, we've run into 
resistance, and the IC claims we should not be looking over its 
shoulder and checking its work. To me, that's basically what 
oversight is all about. And I think the Committee must look 
into the materials on which you base the judgment.
    Unfortunately, Mr. Chairman, when we're seeking documents 
supporting the 2005 Iran NIEs, we're experiencing significant 
resistance. This baffles me. If you're confirmed, I hope you 
will work with us, support our efforts to get these documents 
and perform our duty for the Senate and the American people.
    In conclusion, I thank you so much for taking on this job. 
I congratulate you on your nomination. You are our best hope of 
being able to develop the intelligence we need to confront the 
untold enemies who are united in their hatred of America and 
the freedoms, hopes, and opportunities for our country.
    Best wishes, thank you, Admiral, and thank you, Mr, 
Chairman.
    Chairman Rockefeller. Thank you, Mr. Vice Chairman.
    I now recognize the distinguished senior Senator from 
Virginia, Senator John Warner.

   OPENING STATEMENT OF HON. JOHN WARNER, U.S. SENATOR FROM 
                            VIRGINIA

    Senator Warner. Thank you, Mr., Chairman, Mr. Vice Chairman 
and colleagues on the Committee. I'd like to have my entire 
statement placed in the record.
    Chairman Rockefeller. Without objection.
    Senator Warner. So in the brevity of time, we can proceed 
to the hearing. I would simply say the President chose the 
right man for the right job at the right time, because never 
before in my long lifetime have I seen a more complex set of 
challenges facing this Nation than today.
    My earlier remarks were covered by the distinguished Chair 
and Vice Chair, so I'd like to pick up. This is not the first 
time we have met. We go back, I calculate, Admiral, almost 40 
years when I was privileged to be Under Secretary, Secretary of 
the Navy, and you were a young Ensign JG, happily far away from 
the Pentagon on a beloved ship with your beloved Navy and 
sailors----
    Admiral McConnell. Yes, sir.
    Senator Warner. Which you served with great distinction. 
But then in later life, we did have the opportunity to work 
together.
    The Admiral served as a senior intelligence officer from 
1990 to 1992 for the Chairman of the Joint Chiefs of Staff, 
then-General Colin Powell, and the Secretary of Defense during 
Operations Desert Shield/Desert Storm, and it's at that time I 
met him. He was a one-star Admiral on the Joint Staff when the 
first Gulf War started. He would come to the Hill circa 1990 to 
brief the Senate Armed Services Committee, and indeed the 
Members in S-407.
    I roughly calculated from my diaries you made more than 15 
different appearances during that period where you gave us a 
clear picture of intelligence relating to Iraq, Afghanistan, 
and indeed Kuwait--particularly at that time--and the whole 
region. You won the respect and admiration of the Senate at 
that time.
    Later you, as we say in the Navy, fleeted up to serve as 
Director of the National Security Agency--that's NSA--from 1992 
to 1996, where we again continued our association. During that 
period, I was a Member of this Committee, as well as the Armed 
Services Committee.
    I worked closely with you to ensure that our intelligence 
forces would not be cut so deeply during that period when there 
were substantial cuts to our armed forces. Clearly both of us 
saw that our intelligence forces were our first line of 
defense. They were, as we say in the military, a force 
multiplier at a badly needed time when the ranks were being 
substantially thinned. Under your leadership, Admiral, the NSA 
routinely provided global intelligence and information security 
services to the White House, Cabinet officials and the 
Congress, in addition to the broad array of military and civil 
intelligence customers.
    The Admiral is also one of the first senior officials in 
the United States Government to identify information assurance 
and cyber security as major strategic issues in our 
increasingly networked society and then the emerging Internet. 
You were right on the pioneer status of those critical 
problems.
    You took that knowledge that you gained from 29 years in 
the Navy and then put it back into the private sector but, once 
again, serving the United States and our security interests in 
those positions.
    In 2002, the Consulting Magazine selected the Admiral as 
one of the top 25 most influential consultants in the Nation 
for his work in cyber security and risk management. Later, the 
Admiral served 3 years on the board of directors of Booz Allen 
Hamilton, and is currently the senior vice president with that 
firm, based in McLean, Virginia. He holds many awards and 
recognitions, high academic credentials, all of which I will 
put forth.
    And I would say simply, Admiral, may fair winds and 
following seas get you through the confirmation process.
    [The prepared statement of Senator Warner follows:]
   Prepared Statement of Hon. John Warner, U.S. Senator from Virginia
    Chairman Rockefeller, Vice Chairman Bond, distinguished colleagues, 
it is my great pleasure to introduce to you a most outstanding public 
servant, intelligence professional, and Virginian--Vice Admiral 
(Retired) Mike McConnell--who appears before you today as the 
President's nominee to serve as our country's second Director of 
National Intelligence (DNI).
Family:
    I would like to recognize Mike's family members in attendance today 
and thank them for their steadfast support and sacrifice not only in 
support of Mike, but also our nation.
    Mike has been married to his lovely bride Terry for 19 years and 
they have four children--Erin, Jennifer, Mark, and Christine and four 
grandchildren.
Recognition of Ambassador Negroponte:
    Our nation's first Director of National Intelligence, Ambassador 
John Negroponte, has lead the intelligence community since April 2005 
with great distinction given these troubled times in which we live.
    And I would like to take this opportunity to thank him and his 
family for their service and wish them well as he continues his legacy 
of public service and will assume the position of the Deputy Secretary 
of State.
Role and Importance of the DNI:
    The Intelligence Reform and Terrorism Prevention Act of 2004 
established the Office of the Director of National Intelligence. This 
law serves as the most dramatic reform of our nation's intelligence 
capabilities since President Harry S. Truman signed the National 
Security Act of 1947, and outlines the following:
    <bullet>  The DNI serves as the principal advisor to the President 
of the United States, the National Security Council and the Homeland 
Security Council for intelligence matters related to national security;
    <bullet>  The DNI serves as the head of the 16 member United States 
Intelligence Community; and
    <bullet>  the DNI oversees and directs the national intelligence 
program of the United States
    I can think of no one more qualified or suited for this position 
than Mike McConnell. He is the right man--with nearly four decades of 
intelligence community leadership and experience--to lead our 
Intelligence Community, and to serve as our country's second Director 
of National Intelligence, during this crucial time in our nation's 
history.
Career Highlights:
    Mike served as the Senior Intelligence Officer from 1990-1992 for 
the Chairman of the Joint Chiefs of Staff (then General Collin Powell) 
and the Secretary of Defense during Operations Desert Shield/Desert 
Storm--this is where I first met Mike.
    He was a one-star Admiral on the Joint Staff when the first Gulf 
War started. He would come to the Hill to brief SASC Members--I recall 
at least 15 or more briefings--where he provided the intelligence 
picture on Kuwait and Iraq during that time.
    Mike then ``fleeted-up'' to serve as the Director of the National 
Security Agency (NSA) from 1992-1996--where we continued our 
association. As I recall, during this time, our armed forces were being 
reduced--some by as much as 40 percent.
    I worked closely with Mike, and others, to ensure our intelligence 
forces would not be cut so steeply. Clearly we saw our intelligence 
forces as our ``first line of defense'' and we saw the necessity of 
maintaining a robust intelligence effort.
    Under Admiral McConnell's leadership, the NSA routinely provided 
global intelligence and information security services to the White 
House, Cabinet officials, and the Congress, in addition to the broad 
array of military and civil intelligence customers;
    Mike was also one of the first senior officials in the U.S. 
Government to identify information assurance and cyber-security as 
major strategic issues in our increasingly networked society and the 
then-emerging Internet;
Private Sector Service:
    Following his very distinguished 29 year military career, Mike has 
been equally successful in the private sector. For example:
    <bullet>  In 2002, Consulting Magazine selected Mike as one of the 
top 25 most influential consultants in the Nation for his work in 
cyber-security and risk management;
    <bullet>  Mike served 3 years on the Board of Directors for Booz 
Allen Hamilton; and is currently a Senior Vice President with Booz 
Allen Hamilton based in McLean, Virginia;
    <bullet>  Mike also currently serves as the Chairman and CEO of the 
Intelligence and National Security Alliance (INSA), an industry 
advocacy group designed to work with the government to address complex 
intelligence and security issues facing the nation.
    Awards and Recognition: In addition to earning numerous military 
awards for meritorious service, Mike also holds the nation's highest 
award for his diligent work in the intelligence community--The National 
Intelligence Distinguished Service Medal.
    Academic Credentials: Mike's academic credentials are equally 
impressive: He holds a Master's degree in Public Administration from 
George Washington University; He is a graduate of the National Defense 
University and the National Defense Intelligence College; and he holds 
a Bachelor's in Economics from Furman University.
    Summary: It is with great pleasure, and my distinct honor, to 
introduce this great patriot to you today as the President's nominee as 
our nation's second Director of National Intelligence.

    Admiral McConnell. Thank you, Senator.
    Chairman Rockefeller. Thank you, Senator Warner.
    Admiral McConnell, you are now recognized to make your 
opening statement, sir.

    STATEMENT OF VICE ADMIRAL MICHAEL McCONNELL, U.S. NAVY, 
      RETIRED, DIRECTOR OF NATIONAL INTELLIGENCE-DESIGNATE

    Admiral McConnell. Thank you, Mr. Chairman.
    It's indeed an honor and a privilege to come before this 
Committee today. I am also deeply honored and grateful to 
President Bush for his trust and confidence in nominating me to 
become the second Director of National Intelligence, or DNI, as 
we slip into acronyms, as we are wont to do.
    I want to express my sincere appreciation to you, Chairman 
Rockefeller, and to you, Vice Chairman Bond, for your 
consideration of this nomination. Both you and the other 
Members of the Committee have been most helpful and gracious 
during my courtesy calls. We have some very important issues to 
address and, if confirmed, I look forward to working the issues 
with each of you.
    Today, in an age in which the threats faced by the Nation 
are so very different from those in the past, the DNI must call 
on the wisdom and experience of this Committee to be effective 
in helping to protect the Nation. If confirmed, I will consult 
with you often. I will seek your counsel. And I will take it 
seriously.
    I want to thank Senator Warner for his very kind remarks in 
introducing me this afternoon. In addition to being a great 
American of long and distinguished service to the Nation, he is 
the senior Senator from my adopted home State. I also had the 
honor of working for Senator Warner when he was the Secretary 
of the Navy, as he mentioned, and as a Member of this Committee 
during my time at NSA in the 1990s. Thank you, sir.
    I also want to thank my wife, Terry, our four children, and 
our wonderful grandchildren for their support and patience as I 
contemplate a return to public service. I must admit, we had 
some long and serious talks about my returning after 30 years 
of my first tour, but in the final analysis, they were all very 
supportive.
    After spending most of my adult life in the intelligence 
community, focused on getting the right information to 
decisionmakers in time and format to be useful, I am excited 
about the possibility of returning. Fortunately, my work for 
the past 10 years after leaving Government service has allowed 
me to stay focused on the national security and intelligence 
communities. I have followed the issues and initiatives and, if 
confirmed, I hope to be quickly and directly relevant to build 
on the accomplishments of Ambassador Negroponte and his team.
    While preparing for the confirmation hearing, I have 
focused primarily on the new intelligence reform legislation 
and the process issues in the community. I have not yet engaged 
in all of the substantive and policy issues that I know are of 
the highest interest to this Committee. If confirmed, I will 
come up to speed quickly and engage promptly to answer your 
questions. As I noted in my written response to your questions, 
I understand and I am fully supportive of the role of the 
Congress in your oversight responsibilities.
    Unlike a decade ago, the threats of today and the future 
take advantage of globalization, and they take advantage of 
globalization to move at increasing speeds. The tools that make 
globalization possible, such as rapid transportation, instant 
global communications, global finance, computerization, data 
mining, all make our productivity increase and our standard of 
living improve. At the same, those who wish us harm use these 
same tools to attack the Nation to further extremist views and 
causes.
    Today's threats, as we witnessed during 9/11, cross 
geographic boundaries, and that now includes inside the United 
States. We know that terrorist organizations today are making 
plans for attacks on our citizens inside our borders. It will 
require coordinated responses from the entire community of 
intelligence professionals, working with other security 
professionals, to identify and prevent terrorist groups from 
carrying out these attacks.
    The current DNI Web site lists terrorist events that have 
been carried out and terrorist events that have been prevented 
over the past few years. I would recommend that our citizens 
review this information since it is so easy to get involved in 
our day-to-day lives and forget the seriousness of these 
threats.
    The first responsibility of intelligence is to achieve 
understanding and to provide warning to the decisionmakers. As 
you know, there is a large community of intelligence 
professionals who dedicate their lives to carrying out this 
mission and the other missions of the community.
    If confirmed, I will continue strong emphasis on 
integration of the intelligence community so we may better 
serve the Nation to meet these new threats. That will mean 
accomplishing the full intent of the December 2004 legislation 
on intelligence reform and terrorism prevention. To be 
effective, I believe we must have a more integrated and 
collaborative community; better information sharing and 
communications processes to share; increased focus on the needs 
of our customers; more efficient acquisition, research and 
development, and financial accounting; rapid and improved 
security processes; and deeper penetration of intelligence 
targets to produce the needed information for tactical, 
operational, and strategic decisionmakers.
    I believe the intelligence community needs to move beyond 
``need to know''--the approach of the cold war--to a new 
approach that embraces the idea of responsibility to provide to 
our users, to the battlefield, to state and local security 
officials.
    Many of these threats and challenges were identified in the 
questions the Committee asked me to answer. If I am confirmed 
by the Senate, I will do my very best to make meaningful 
progress addressing these challenges.
    I also understand that the conflicts in Iraq and 
Afghanistan and the role of the intelligence community in these 
conflicts, and in combating terrorism overseas, are some of the 
most pressing priorities of this Committee. If confirmed, I 
will work with you in addressing these issues as my highest 
priorities.
    If confirmed, I also will consult with this Committee, the 
House Intelligence Committee, and other congressional leaders. 
I will be open to your questions, ideas, and proposals. I will 
use my interaction with this Committee as important inputs in 
shaping my recommendations and my actions. I, of course, 
understand it is the President who will ultimately decide on 
what changes are made in the Executive branch's approach to 
many of these high priority areas.
    I want to return to the serious new threats of today--that 
is, the current planning by al-Qa'ida to attack inside the 
United States, to attack U.S. interests and the interests of 
our allies outside the United States. Not many years ago, the 
intelligence community focused almost exclusively on foreign 
threats outside our borders. What is new is the need to focus 
on these threats inside our borders. We must be effective in 
collecting and processing information to protect Americans from 
terrorism and to do so consistent with our Constitution, our 
laws and our values to respect the rights and privacy of our 
citizens. We will need to work together to develop processes 
and procedures that are effective in meeting these goals.
    Mr. Chairman, Members of the Committee, I did not seek to 
return to Government to become the DNI. I agreed to this 
nomination because I love our Nation and because the President 
asked me to come help because he thought I could help. I hope 
your deliberations will reach a similar conclusion.
    Thank you, Mr. Chairman. That concludes my opening remarks.
    Chairman Rockefeller. Thank you very much, Admiral 
McConnell.
    I'll just start off with a question or two.
    There's been a lot written, and more said, about the 
Defense Department's encroaching on various aspects of 
intelligence collection normally done by the Central 
Intelligence Agency and the Federal Bureau of Investigation.
    To what extent are you concerned about competition between 
the DNI and the Secretary of Defense for control of the 
intelligence community? Have you discussed any of these issues 
with Secretary of Defense Bob Gates? How are you, if at all, 
concerned that the Defense Department may be encroaching on 
CIA's activities, particularly its covert action missions, and 
thereby undermining the coordination and effectiveness of our 
counterterrorism efforts?
    Admiral McConnell. Senator, when I was asked to consider 
this nomination, I asked for some time to think about 
accepting, and during that timeframe, one of the things I 
wanted to do was to have a conversation with Secretary Gates. 
As you know, he was public in his remarks before he became 
Secretary of Defense about what he thought about the DNI's 
authorities.
    I had that conversation before I accepted the nomination, 
and I have had a conversation with Secretary Gates since. And 
we are of a common mind that we need to clean up the 
authorities for the DNI with regard to how this community is 
managed.
    Now, embedded in your question were lots of parts--covert 
action and concern about competition and so on. I have views 
about those things. This community has to stand on its own two 
feet. It has to engage in the appropriate way. There inevitably 
will be bureaucratic friction. Any time missions are close or 
overlap, there are frictions. I think it's the responsibility 
of DNI to address those frictions in a forceful way to get us 
to the right place, as collaboratively as possible, but to get 
on to meeting the interests of the Nation.
    Chairman Rockefeller. Thank you, sir. I'll just ask one 
more for this round.
    As I mentioned in my opening remarks, I want our 
relationship to be open and cooperative, with the understanding 
that we're all working toward the same goal. In order for that 
to work, we need to have access, as Vice Chairman Bond 
indicated, to the information that we need to do thorough and 
fair oversight, which is what we are all about. We do 
oversight.
    Intelligence activity should be notified to all Members of 
the Committee. The National Security Act of 1947 has something 
to say about that. The only exception I think that is valid and 
the one envisioned in the National Security Act of 1947 is in 
those rare occasions when an intelligence activity, such as a 
covert action, is imminent and is of such operational 
sensitivity that its exposure could endanger lives and severely 
damage our national security.
    Now, this excludes large, ongoing intelligence collection 
programs like the CIA's detention and interrogation program and 
the NSA surveillance program. It is my view that overly 
restrictive Gang of Eight notifications given to the Congress 
on these programs ultimately undermine their effectiveness and 
the Congress's confidence in their effectiveness. And they've 
caused legal problems and I think some damage to the reputation 
of the United States.
    So my question, very briefly, is, do you believe that there 
are categories of information--and you may wish to think about 
that; simply tell me that--categories of information that 
should be withheld from Congress, for reasons such as I've 
stated, or notified only to the Chairman and Vice Chairman of 
the Intelligence Committees in the House and the Senate? And if 
so, what kinds of information?
    And second, will you do everything in your power to ensure 
that all Members and staff of this Committee have access to the 
information they need to do their jobs?
    Admiral McConnell. Well, sir, as I tried to capture in my 
written responses to your questions and my opening remarks 
today, as a general philosophy now and when I served on active 
duty before, I understand the responsibilities of Congress, and 
my philosophy is to provide the information you need for your 
oversight responsibilities.
    Now, there are some exceptions that have been captured in 
law written by the Congress and approved by the President that 
will make some exceptions. I would hope that those are very 
rare and few exceptions. And, as you outlined, it would be 
mostly in an operational context when life and limb are at 
risk.
    Chairman Rockefeller. My time is up, and I thank you, sir.
    Chairman Bond--Vice Chairman Bond.
    Vice Chairman Bond. Thanks for the temporary promotion.
    Admiral McConnell, we've talked about cooperation and 
collaboration. Everybody knows that's important. But you also 
noted that can be a delay. I think I know the answer, but just 
for the record, are you willing to shake up the community, 
break some rice bowls, make unpopular decisions erring on the 
side of decisive leadership in the community when consensus 
cannot be achieved and sharing is not occurring?
    Admiral McConnell. The short answer, Senator, is, yes, I am 
prepared to do that. I am a consensus builder. I do listen. But 
at some time, you have someone in charge for a reason, and that 
means if you have to make a decision to break through an 
impasse, you have to decide and move on, and I'm prepared to do 
that.
    Vice Chairman Bond. Well, I look forward to supporting you 
in those efforts.
    Turning now to the intelligence community financial 
management, there are a number of things that need to be done. 
Let me ask a couple of questions. They may come together, but 
do you think there are milestones that should be set for 
achieving timely and unqualified audits? And would you give the 
DNI, as head of the IC, direct appropriations of all NIP funds, 
rather than the current situation in which Department of 
Defense NIP funds are approved through the DOD?
    Admiral McConnell. Well, sir, as I think was made reference 
in the Chairman's opening remarks, there's a difference between 
building a budget and executing the funds. And the way it was 
described is DNI has a responsibility for overseeing the budget 
bill; execution is decentralized. Based on my findings so far, 
I'm concerned about how you describe the financial statement or 
an audit. As you know, we haven't been successful in doing 
that. That's an area that I have started to look into, I am 
concerned about.
    And the way I would frame it is somehow recapturing the 
timely excellence that we enjoyed years ago, 1960s, 1970s, to 
move with speed to capture significant capabilities, as 
compared to today, when it takes us so long to build something. 
So can we move better and be better in the acquisition cycle? 
Can we do the budget bill so there's some stability? And to go 
to your question, can we audit it with the competence of how 
it's audited in industry today? That's the thing we need to 
focus on.
    Vice Chairman Bond. OMB has put out the financial 
management line of business guidance. Do you think it would be 
helpful and could you achieve creating a cost-effective single 
software system that would aid in achieving a clean audit 
opinion?
    Admiral McConnell. Sir, in my professional life in the 
private sector, I've had a chance to observe that. That is not 
an easy thing to do, but it is necessary. To get to what you're 
describing in terms of clean audits that will pass and meet 
generally accepted accounting practices, my belief is we are 
going to have to look at something like a software package 
today that would help the community account for--it really 
should be described as what are the auditing procedures, what 
are the control mechanisms, and are they adequate for us to 
meet financial requirements.
    Vice Chairman Bond. Let me just finish up with a question 
on the item I referred to earlier--the ideological battle, 
understanding radical Islam, what's driving them. Are there 
steps that you can tell us about that the IC should take to win 
this battle, to understand it better or to counter it? And can 
you take steps to see that this entire operation is adequately 
funded?
    Admiral McConnell. Senator, that would be one of my highest 
priorities to address. I would note it's a complex answer to 
your question. We live today with security rules that literally 
were established in World War II and served us well--World War 
II and the cold war.
    Many of those rules prevent us from, for example, using 
first- generation Americans who might have native language 
capabilities from serving in some of these very sensitive 
positions in the intelligence community. My view is, we're 
going to have to look at that very hard to reform it to do what 
you're talking about, to get inside, understand, and perhaps 
influence the ideological battle. I agree with the way you 
captured it; it's the ideological battle that's the bigger 
problem.
    Vice Chairman Bond. I really hope you will start using more 
first-generation Americans who speak the language and 
understand the people. That is really important. Thank you, 
sir.
    Admiral McConnell. Sir.
    Chairman Rockefeller. Thank you, Vice Chairman Bond.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    First I listened intently at the rice bowl admonition. But 
I do wish at this time to acknowledge that I felt John 
Negroponte did a very credible and outstanding job in his 
tenure, beginning in April 2005, as the head of this 
organization that you're about to be confirmed for. And I think 
there are many of us here who would like to join in 
acknowledging that public service that he gave in breaking 
ground and establishing this very important office. And I hope 
you weren't referring to his rice bowls.
    Vice Chairman Bond. No, he had to break some with the CIA--
I'll talk to you offline some of battles that he did win.
    Senator Warner. Well, and just a suggestion that you carry 
on in the traditions that he did. I thought he did a good job.
    I also listened carefully to you acknowledge that you had 
met with Secretary Gates. I think that's a very important 
thing, first step. But having served for 29 years--or most of 
it--in naval intelligence, you recognize the value of 
intelligence to the on-scene commanders, whether he or she has 
four stars, or they're a ship commander of a small LST. It's an 
island of America in some far part of the world.
    They need a certain amount of infrastructure permanently to 
keep them advised and to assess the massive amount of material 
that's growing in the intelligence community in order to keep 
their crews safe and to perform their job.
    So as you look over what DOD's doing today, I have followed 
it very closely, given that I once wore a hat as Chairman of 
the Armed Services Committee. I'm still a Member of that 
Committee. But during that period of time, I must say I was 
somewhat protective of the infrastructure that I feel is 
essential for that department.
    And they're full partners in the overall organization with 
which you'll soon have the responsibility. But they do need 
that help, given the importance of their jobs.
    Can you sort of assure me that that's your vantage point 
from whence you will start on this?
    Admiral McConnell. Yes, sir, Senator Warner. You're 
describing my roots. That's where I came from. I understand it. 
And I very much would focus on protecting our troops or our 
sailors, airmen around the world in any capacity.
    The interesting observation I had in a previous life, when 
I was on active duty, is there always seemed to be some divide 
between national and tactical. And those of us on the tactical 
side struggled regularly to have the benefit of national 
sensors. So I understand how that works, and I think the right 
answer is to make it serve the interests of not only the forces 
forward, but national interests. And they can be balanced. It's 
a matter of being informed and understanding your customer, 
whether it's the White House or the foxhole.
    And I want to put a great deal of my time and energy making 
sure that we're optimized for both of those and never, ever 
lose sight of the fact that we owe it to our forces forward to 
give them the very best support.
    Senator Warner. Well, we had an interesting chapter in 
legislative history when we put together the legislation which 
created your office and other revisions in the intel community. 
By and large, they were constructive. They were well done. But 
I hope that from your vantage point, if you see the need to 
refine that legislation, that you will so advise our 
distinguished Chairman and Ranking, the balance of us on that 
Committee, and we'll turn too on that subject.
    But once again, I'm pleased that you recognize the 
importance of what the Department of Defense has and its need 
to preserve those tactical resources and infrastructure.
    My last question relates to the expertise that you've had 
in cyber security. Some years ago, I and other Members of the 
Armed Services Committee recognized the criticality of that 
problem. And we constructed, with a few funds we stole from 
here and there, a scholarship program for the Department of 
Defense, whereby young persons today can select a university or 
college of their own choosing, provided that learning 
institution has an expertise, spend 4 years, and get a degree 
in cyber security, in return for commitments of several years 
of service in the Federal Government or the United States 
military, as the case may be, to apply the skills that they 
learn in that very important subject.
    I'm hopeful that that program will continue, but I urge you 
to augment other means by which to encourage young people to 
come into that somewhat narrow, but absolutely critical 
profession in our intelligence community. Do you have a comment 
on that, given your many years of experience?
    Admiral McConnell. Sir, I agree with that program and 
support it very strongly. When I was at NSA, years ago, we had 
a similar approach. And I'm familiar with several programs that 
provide scholarships for youngsters to focus in not only cyber 
security, but national security issues. Even as a member of the 
private sector, a number of us came together to create a 
similar scholarship for NSA.
    So a very worthy cause, should enjoy a high priority. And 
since I've focused so much on cyber security, that's a personal 
interest. And I understand how important it is to the Nation, 
so I'd be very supportive.
    Senator Warner. Thank you very much, Admiral. I appreciate 
your once again stepping up to accept public service, together 
with your family.
    Chairman Rockefeller. Thank you, Senator Warner.
    Senator Wyden.
    Senator Wyden. Admiral, I very much enjoyed our private 
meeting and thought you were refreshingly candid. I'm going to 
ask you some questions in a minute about private contractor 
practices, but I want to ask you first about the use of 
intelligence.
    And my question is, if you were the Director of National 
Intelligence, and you became aware that the Bush administration 
was cherry-picking or exaggerating intelligence to justify 
going to war, what would be your response?
    Admiral McConnell. If I were aware that anyone was using 
information inappropriately, then I would make that known to 
whomever was using the information inappropriately.
    Senator Wyden. You would tell the President and this 
Committee?
    Admiral McConnell. I would tell all those responsible for 
this process what the situation was. And in the role of this 
Committee for oversight, you would be a part of that process to 
be informed.
    Senator Wyden. Admiral, I think that's a patriotic and 
commendable answer, and I thank you for it. And that was along 
the lines of what I was hoping for.
    Admiral, it's troubling how little information is available 
about the private contractors who are doing an increasing 
amount of work that's being done by the intelligence agencies. 
And right now, this Committee doesn't even know how many 
contractors are employed by the intelligence community because 
so far, the Director of National Intelligence hasn't been able 
to inform us. Do you have even an approximate number of how 
many of these private contractors there are?
    Admiral McConnell. Senator, I don't know that figure now. I 
had some general ideas years and years ago, but let me capture 
it in a way that may be helpful. When I think of Government, 
military, or intelligence community--whatever--the Government 
doesn't make things. It's people doing work. And so if you need 
to buy something like a tank or a satellite or airplane or 
whatever, that's done by the private sector. So when you say 
contractors, I would describe it as private sector.
    With regard to your question about too many contractors, I 
would describe it a little bit differently. The private sector 
maintains a significant capability. Post-9/11, the Government 
found itself in need of special skills and special talent, and 
they were not available inside the Government. So the 
Government turned to the private sector to get some special 
skills and capabilities.
    So, from the way I think about it, that's the goodness of 
the American system, that you have that sort of talent ready 
and available.
    Senator Wyden. What jobs, Admiral, do you believe are too 
important or too sensitive to be performed by contractors? In 
your statement, you say, well, we ought to use them, but 
sometimes we shouldn't be using them, and I'm trying to figure 
out what the line is. What jobs are too important or too 
sensitive to be performed----
    Admiral McConnell. Actually, Senator, in anticipation of 
your question, I looked to see if there were some regulations 
inside Government that would define that, and as a matter of 
fact, there are. It's an OMB circular. I don't recall the 
number, but I could get it for you. But it talks about things 
like command or major decisionmaking or awarding contracts, but 
things that it describes as inherently governmental. But how I 
would think about it is decisions that are uniquely reserved 
for the Government or any kind of command decision where you 
would involve using forces to do something like military 
activity or law enforcement, that sort of thing.
    Senator Wyden. So you wouldn't be likely to want them to be 
interrogators, for example?
    Admiral McConnell. I can't imagine using contractors for 
something like that, but----
    Senator Wyden. When we met in my office, I asked you about 
your role as a contractor for the John Poindexter program, 
Operation Total Information Awareness. We derailed it when we 
found out about the betting parlor idea.
    And I'd like your views regarding intelligence collection 
and how we balance the need to fight terrorism ferociously, 
while still protecting the rights of our citizens.
    Admiral McConnell. And therein is the challenge, Senator, 
and I enjoyed our conversation in your office also. Let me just 
repeat how I tried to frame it at that time.
    Senator Wyden. Starting with the involvement with the 
Poindexter program.
    Admiral McConnell. Indeed. The United States invented, 
created most of the technology that we refer to today as the 
Internet. I tend to think of it as instantaneous global 
communications. I could take a credit card--and I have done 
this--whether I was in the Middle East or Hong Kong or 
Australia or San Francisco and used that credit card for my 
personal benefit to make a purchase, to buy a meal or 
something.
    On occasion, that credit card would stop, and I would be 
required to speak with someone that administered the credit 
card to answer some questions. And why was that? The credit 
card systems have what's embedded--included called data mining. 
It's a process to prevent fraud or waste or so on. And so some 
trigger had been made with regard to the profile, and so it was 
flagged for an operator to intervene.
    When I describe our financial system, global 
communications, what's happening to us today is the terrorists 
are using those very systems for their own benefit. Think of it 
as command and control for remote terrorists who have a 
particular ideology they're attempting to spread, so they can 
communicate around the globe, instantly around the globe. As I 
sat in my office a couple of months ago, in the course of 6 
minutes, I had three exchanges with one of my partners in 
Tokyo. That's just how quickly it moved.
    When DARPA, the Defense Advanced Research Projects Agency, 
wanted to engage in a program to move the state-of-the-art of 
data mining from where it was to where it could be, they chose 
Admiral Poindexter to run that program.
    There was a competition, and a number of contractors 
competed for that work. I was one of those competitors. And so 
another firm and my firm won the work.
    Now, interestingly--although I'm not a technical expert--we 
had lots of technical experts. I was more of an operational 
adviser. My advice during that evolution was to talk about how 
information could be used and to be very clear about how it 
could be applied under today's laws, rules, values, 
Constitution, regulation. Unfortunately, my argument did not 
persuade and convince those who were making the decisions 
inside Government for how they might describe it.
    So if your question to me is should we be doing advanced 
R&D, yes, sir, I think we should be. Should that R&D, should it 
produce something, be used in the way you described it? I don't 
think so.
    Senator Wyden. Mr. Chairman, I'm over my time.
    Admiral, I appreciate your thoughtful answers. I would just 
say, as we tackle this issue and strike the balance, there's a 
difference between information that's voluntarily supplied, 
which is the credit card information, and that secretly 
collected by the Government. I look forward to working with you 
in the days ahead.
    Thank you, Mr. Chairman.
    Chairman Rockefeller. Thank you, Senator Wyden.
    Senator Mikulski.
    Senator Mikulski. Thank you, Mr. Chairman.
    Admiral McConnell, once again I'm very glad to see you. I 
was glad to work with you when you were the head of the 
National Security Agency, which is located in Maryland, from 
the time period of 1992 to 1996, a time of great transition, 
and also our robust talk in my office.
    We want to welcome you. And I personally feel that it's 
just great that you're willing to come back in Government 
service. I believe you're a man of great personal integrity. I 
believe you come with great technical competence. And you 
certainly are committed to the core mission of the agency--and 
the fact that your family is willing at this point in your life 
to forego some of the things, from having you at home and the 
benefits of being in the private sector.
    But let me get to my question, and it's what I said in my 
office and it's what I want to say here. You are a man of the 
military. And my question is, what does that mean in respect to 
being the DNI? Having great respect for the military, at the 
same time it is a culture of saying yes. The military by its 
very culture says yes to the Commander in Chief. At the same 
time, the job of intelligence is to prevent terrible things 
from happening and also to prevent the United States from 
making terrible, reckless mistakes. In other words, speaking 
truth to power.
    Given your background and where you come from--your great 
diligence, dedication and achievement--my question to you is, 
tell me how we can count on you to speak truth to power?
    We have just gone through a terrible time of what I call 
the ``gaga'' factor, where those--before the DNI was created--
the minute they walked into the Oval Office we heard, ``We can 
slam-dunk this, Mr. President.'' Colin Powell was sent up by 
the intel agencies to testify at the United Nations, the most 
esteemed man in America, and again with flawed intelligence. 
The information on Iraq was dangerously incompetent.
    My question to you is that as you do the work of the DNI, 
how can we count on you to speak truth to power so these 
terrible and reckless mistakes won't happen again?
    Admiral McConnell. Senator, I believe that the first 
calling of an intelligence officer is to do just that--speak 
truth to power. In my career, I hope I have a reputation for 
having done just that.
    There have been many intelligence officers--I'll just use 
the Navy as an example--we're not combat arms, we don't command 
ships, we don't command airplanes, we don't have lots of 
resources. So if you're going to be relevant, you have to have 
something to say and you have to be able to stand on your own 
two feet. So there have been a number of occasions in my career 
where I had to not be popular, but speak truth to power. What I 
found is when I did that, and I did it forcefully and I did it 
well, my reputation grew.
    So I've lived it; I learned it; I believe it. And so I can 
only tell you that that's what I'll do.
    Senator Mikulski. First of all, I take you at your word. I 
mean, there's no doubt about taking you at your word. Will you 
have at the DNI's office a channel for dissent?
    I asked the same question of Ambassador Negroponte during 
his confirmation. At the State Department such a channel 
exists, and he also began to establish this at DNI, so that 
where there is legitimate dissent--and I'm not talking about 
personnel issues or EEO issues, but really on analysis or on 
issues related to collection, or on other things--where 
something would get to the top so that the boss would know that 
there are flashing yellow lights and even someone calling out, 
perhaps, a red light or a fire.
    Could you talk about how you've either established such a 
channel in previous positions, or would you continue the 
Negroponte development of such a channel--again, always so that 
you would have the best benefit of what was going on?
    Admiral McConnell. Senator, I couldn't agree with you more 
that a manager, a leader has to know what's going on in the 
organization, and there has to be a channel or multiple 
channels for dissent.
    The way I would think about it--there has to be a formal 
channel and there has to be informal channels. The way I have 
personally handled that sort of thing is I like to do what I 
call management by walking around. I know many members of this 
community. I've already started to re-establish contact. It 
wasn't uncommon for me when I was in the previous tour, NSA or 
Joint Staff, to call up the junior analysts on the desk and 
say, ``What do you think? How's it going?'' So I found that has 
been effective because people know I do that, and it provides a 
channel of information to flow to me. So it sort of keeps the 
system on its toes.
    Now, that said, I've talked to those who are overseeing the 
analytical improvements, and they've brought in some people 
from the academic community with regard to how to do this in a 
more structured and formalized way--challenge assumptions, 
challenge the fact base, alternative analysis, red teams.
    And one of the things I'm very pleased with is any time a 
series of conclusions were being drawn, there is now a red team 
that's assigned to attack that NIE or whatever it is. It's 
something that I did previously. It's something that we do in 
industry all the time. Any time we think we've got a good idea, 
we run a red team against the idea to test it. So formal and 
informal--and I agree with you, it has to be a part of the 
process.
    Senator Mikulski. Well, thank you very much, Admiral. I 
intend to support your nomination, and I think we're blessed to 
have you back.
    Admiral McConnell. Thank you, ma'am.
    Chairman Rockefeller. Thank you, Senator Mikulski.
    Senator Snowe.
    Senator Snowe. Thank you, Mr. Chairman, and welcome, 
Admiral McConnell. I appreciate the fact that we had an 
opportunity to meet and also the fact that you're willing to 
return to public service.
    One of the questions I wanted to ask you this afternoon was 
an article that appeared in The New York Times this last week, 
and it talked about a story about our soldiers in central 
Baghdad on Haifa Street. One of our soldiers was shot in an 
apartment, and they weren't sure where the shot came from, and 
tragically, he died shortly thereafter. They were trying to 
figure out where the gunfire came from. And then they thought 
perhaps that it was shot by an Iraqi army soldier operating 
directly beneath them--obviously, that hasn't been 
ascertained--and that the Iraqi army unit wasn't even supposed 
to be there at that point in time, but they didn't have 
communication links with their Iraqi counterparts because it 
was an Iraqi operation, as senior officers repeatedly 
emphasized, and the Americans could not order the Iraqis to get 
back in line. There was nothing they could do.
    Further on in the article, there was a description of the 
young man telling our troops about a terrorist hiding in the 
slums behind the apartment buildings on Haifa Street's eastern 
side. And the soldiers felt that it was impossible to know 
whether the boy had legitimate information or would lead them 
to an ambush.
    That summed up intelligence in Iraq, they said. There's 
always the threat of being set up for an attack or an Iraqi's 
own agenda.
    Now, I think that's obviously disturbing, and given the 
fact that our troops are going to be embedded with Iraqi army 
units and engaged in going from street to street, neighborhood 
to neighborhood, apartment to apartment, I do see these 
repeated incidents. How would you characterize these types of 
incidents as the principal adviser to the President?
    Admiral McConnell. I would say they're unacceptable the way 
you've described it.
    Senator Snowe. I'm reading it from The New York Times story 
this week.
    Admiral McConnell. I don't know the details. I served in 
Vietnam years ago, and there were some similar circumstances. 
And so I think the way you address it is, you have to provide a 
level of security to control an area.
    So I see it more as a military question. I listened to 
General Petraeus's comments to the Senate when they were doing 
his confirmation, and there is an approach. So when I think 
about it, one of the biggest challenges to this problem is 
providing a level of security that would prevent the sort of 
thing that you're describing.
    Senator Snowe. Well, what about the intelligence? Would 
there be anything you would do differently? I mean, if you 
thought that there was a level of infiltration or penetration 
in these units that subject our troops to great risk, obviously 
the quality of the intelligence is important, and that's 
obviously what our soldiers were saying at that moment in time. 
And that's a tremendous threat because we're weighing in the 
midst of sectarian violence and conducting, frankly, urban 
warfare.
    Admiral McConnell. You're describing one of the areas of 
intelligence that needs probably the greatest deal of attention 
and improvement. As I mentioned earlier about using people who 
speak the native language, understand the culture and the 
tribal conditions and so on, my sense of it is, that's the area 
that we have not gone as far as we need to go in making the 
kind of improvements you're describing.
    Senator Snowe. Well, it's certainly disturbing. This 
morning Brent Scowcroft told the Senate Foreign Relations 
Committee that the Iraqi army's not sure who it's fighting for, 
whether it's a sect or an ethnic group or a state. So it just 
obviously elevates and accentuates the risk.
    So, what would you be prepared to do in this new capacity 
to make sure that our troops have the right kind of 
intelligence?
    Admiral McConnell. Well, one of the things I have to do is 
to understand it better. And, as was questioned and asked about 
earlier, the intelligence support for the troops forward, those 
on the ground, engaged in combat, that's one of the most 
important things we do. And so what I would do is look at the 
problem, see what kind of improvements could be made. I think 
there are some structural things that can be done. I think 
there's some rule changes that can be done.
    However, Senator, I would say this is not something that 
you would improve literally overnight. This is an approach to a 
combat and a situation that's very different from what we faced 
in the past.
    Senator Snowe. Well, I know, and that's the very reason why 
I'm asking the question. And I would hope that you would give 
this your highest priority in assuming this new position, given 
the fact you are the principal adviser on intelligence to the 
President. I hope you would not hesitate to raise this risk, 
and also that you would do everything you can within your 
capacity to make sure that they have the kind of intelligence 
and are massing the intelligence necessary to protect our 
troops.
    Admiral McConnell. And the emphasis on improving human 
intelligence, which is not only just the CIA, but also includes 
the military services, is intended to do that.
    But I would assure you that, if I'm confirmed, that's one 
of the areas that I will focus on to ensure that we achieve 
improvement.
    Senator Snowe. Would it be something very different from 
what the department is doing now?
    Admiral McConnell. I believe it would be. But let me get 
into that and I can tell you--I'll come back to you with what I 
find out.
    Senator Snowe. I appreciate it. Thank you, Admiral.
    Thank you, Mr. Chairman.
    Chairman Rockefeller. Thank you, Senator Snowe.
    Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    Admiral, I thank you for your willingness to come back and 
return to public service. It is a sacrifice for you and your 
family, and we appreciate you very much, more than you'll know. 
And you've certainly got a challenge ahead of you.
    Just following on with what Senator Snowe was commenting on 
there. As you and I discussed privately, I have a real major 
concern about the level of intelligence and the capabilities 
that are ongoing in Baghdad, and for exactly the reasons that 
Senator Snowe alluded to.
    I know you're going to have an awful lot on your plate 
early, but we've got a new strategy in Iraq; we've got a new 
sheriff in town over there who is a great soldier and I'm very 
confident he is going to do an excellent job of carrying out 
the President's new strategy. However, unless he's got the 
proper tools to work with, it's not going to be possible to 
achieve success. And in my opinion, the number one issue is the 
lack of good, succinct intelligence getting to the warfighter 
within real time. And that's not only got to come from 
personnel who will be directly under you, but it's got to come 
from the citizens of Iraq.
    So it's going to be a twofold operation that you're going 
to have to carry out, getting your people to do the job--and 
Mike Hayden and I have talked about this, and we'll continue to 
dialog about it--but you've also got to make sure that we do a 
better job than what we've done of winning the hearts and minds 
of the Iraqi people within the intelligence structure.
    We have had a serious deficiency in our HUMINT capability 
that was pointed out particularly following the incident of 
September 11 and our investigation into the intelligence 
community. Again, you and I have discussed this.
    And I wonder if there are any glaring deficiencies that you 
have noticed just from your cursory review of the intel 
community in preparation for this that you see that can be 
improved significantly from an initial standpoint regarding our 
HUMINT capability.
    Admiral McConnell. Sir, my impression so far is perhaps we 
can put more emphasis on diversity in our approach--meaning, as 
I mentioned earlier, native speakers, people who would blend 
in, those who could understand the cultural-tribal-sectarian 
kinds of issues at the level of the people that are engaged in 
activity. And then I think our HUMINT capability, once we're 
there, would start to be significantly improved. So that's an 
area that I'm concerned about. In fairness to those who are 
pursuing these areas, I have not yet engaged in a fine level of 
understanding of just how much progress we've made, but that's 
something that I certainly intend to pursue, if I'm confirmed.
    Senator Chambliss. I want to second what Senator Bond said 
too about the applicants for these jobs, and I would just note 
that there is a current employment announcement for one IC 
organization that requires that all applicants and their 
immediate family members must be U.S. citizens, which includes 
their spouse, children, parents, siblings, foster parents, 
half, step and foster siblings, adopted step and foster 
children and cohabitants, which, by definition, obviously would 
include not any first generation American. And all that's 
spelled out in the advertisement for employment.
    We've got some serious issues there that really do need to 
be addressed. You're not going to be able to find folks who are 
going to be able to speak the language unless you go to them, 
recruit those folks who grew up speaking that language.
    So thanks again for your willingness to come back. We look 
forward to working with you, and we certainly wish you the best 
in this significant challenge you have.
    Admiral McConnell. Thank you, sir.
    Senator Chambliss. Thank you, Mr. Chairman.
    Chairman Rockefeller. Thank you, Senator Chambliss.
    Senator Burr.
    Senator Burr. Thank you, Mr. Chairman. Admiral, welcome. It 
is good to have a Carolinian at the table. We're outnumbered in 
Washington.
    I've had an opportunity to sit and, as my turn came up, to 
reflect over some of the articles that have been written since 
the President made your nomination, and they've dealt with your 
being a professional spy. They've dealt with the Pentagon 
relationship. They've dealt with your level of independence, 
and they've even dealt with your business post-military.
    I want to say and be on the record, that I think it's 
important to have a professional in this role. I think that one 
who understands the Department of Defense gives us a unique 
ability to understand the degree of separation and leadership 
that we need at the DNI.
    I think the article about your independence was a surprise 
to some, that so many had shown examples--real examples, 
historical examples--of where you had shown independence from 
even the Administration and those who might have been above 
you. And as somebody that came to Washington out of business, I 
see absolutely nothing wrong with the fact that after your 
career in the military, you went out and made some money. I 
think it would probably serve us well if everybody had an 
opportunity to do that up here before they came.
    So I find absolutely nothing in your business background 
that would disqualify you. If anything, these articles told me 
that we had a nominee who was not only a professional, he was 
successful. And with success comes a degree of judgment that I 
think is absolutely essential in the role you're going to play. 
So I overwhelmingly support your nomination, and I hope we will 
move very quickly.
    I want to take a different tack from the standpoint of 
questions. We've all got questions that will deal with the 
threats du jour, regardless of where they are. Let me ask you 
about two specific areas if I can. You referred, in your 
questions and answers, to energy as a national security issue. 
Can you expand on that slightly?
    Admiral McConnell. Sir, what I mean by that is our 
dependence on foreign oil sources. And what I worry about is 
something like Venezuela now, where energy can be used as a 
weapon. So understanding it and how it might be controlled is 
something, I think, that not only the others in the Federal 
Government, but also the intelligence community needs to 
understand and get ahead of, think about it.
    So much of intelligence is forecasting what might happen. 
``Alternative futures'' is how we like to describe it. So when 
I look at problems facing the Nation in the future, I think our 
demand, almost insatiable appetite for energy, particularly 
with the growth of India and China, is going to put increasing 
pressure on the Nation to compete for energy resources. So 
that's what I mean by that.
    Senator Burr. Do you see our role at trying to predict what 
the energy future looks like, and how that may or may not 
affect our national security, as the role of the intelligence 
community, or is there another area of government that should 
have that mandate to be the one in charge?
    Admiral McConnell. What I see the role of the intelligence 
community to be is to look at hard problems and talk about 
them. I go back to Senator Mikulski's question about speaking 
truth to power. Many of these problems are not very pleasant to 
deal with, to think about. So for me, it is to spend some time 
and energy looking at the problem and attempting to come up 
with a forecast of at least options on what we might have to 
deal with, and then serving that information up to the 
policymakers who have to deal with it.
    Senator Burr. On another subject, have we lost sight of 
Russia as a strategic threat to the United States?
    Admiral McConnell. Senator, you probably have heard about 
mission managers in the community now to be focused on problems 
of concern. And I've talked to some of the mission managers and 
I'm very impressed. They look at the problem from the 
analytical standpoint, the collection, and they integrate 
across the community. They challenge assumptions and 
conclusions, do a little red-teaming, that sort of thing.
    And where I am in my thinking at the moment is to take a 
look at Russia, because there isn't a mission manager for 
Russia. I think we need to understand it. We need to know where 
it's going. And having someone focused on it as a mission 
manager at the national level would serve us well to stay 
focused and continue to review it.
    Senator Burr. The last question, Mr. Chairman.
    Does the fact that oil is now $57 a barrel--I think today, 
$56 and some change--increase the likelihood that we should 
look at Russia as a strategic threat?
    Admiral McConnell. Sir, as you know, Russia, because of 
that increase in oil prices, is significantly advantaged in 
terms of resources right now, in terms of what they get for 
their oil. I've been troubled by some of the trends in Russia 
over the last year or so. So that's a scenario that needs 
attention and focus and, again, producing those forecasts on 
where it might be taking us.
    Senator Burr. Thank you, Admiral.
    Thank you, Mr. Chairman.
    Chairman Rockefeller. Thank you, Senator Burr.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Mr. Chairman.
    Admiral McConnell, thank you for your willingness to return 
to the service of your country. I will be enthusiastically 
supporting your confirmation. I don't want to hide the ball 
about that. But I do want to let you know that we are really 
counting on you. The environment that you arrive in is one in 
which there is considerable belief and reporting that the 
intelligence evaluations process developed over many years was 
subverted to allow favored, if not flawed intelligence to rise 
to the top. We have witnessed colossal intelligence failures. 
There is significant concern that political signals emanating 
from the White House have in the past clouded the intelligence 
function, and that puts the intelligence function in this 
country under particularly high scrutiny right now. And I know 
you're well aware of that.
    I'm also keenly aware of the personal sacrifice that you 
are undertaking to assume this position. As the son of a 
Foreign Service officer, I'm somewhat sensitive to what wives 
and children, and I guess even grandchildren have the 
opportunity to experience, and it's not always entirely 
positive. And I know that the complexity of your personal 
affairs creates hazards that you are well aware of and that I'm 
confident you will be rigorous in avoiding and being cautious 
about.
    As I said, it's been a rough patch for the American public, 
first having been told about weapons of mass destruction, then 
having been told that the mission was accomplished, then having 
been told that the small army that won the victory would be 
adequate to maintain the occupation, then having been told that 
we'd be welcomed with open arms and flowers, then having been 
told that de-Ba'athification was a necessary and good idea, 
then having been told that there was no civil war, and now 
being told that this surge or escalation was the idea of the 
Maliki government.
    We thirst for candor, and we look forward to that being a 
virtue that you pursue assiduously. And I echo what Senator 
Mikulski said about the need of speaking truth to power.
    So, with those premonitory words, sir, welcome back to 
Government, and Godspeed to you in your efforts.
    Admiral McConnell. Thank you, Senator.
    Chairman Rockefeller. Thank you, Senator Whitehouse.
    Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman.
    Admiral, welcome. I want to thank you for the time we had 
together. I very much appreciated it. I happened to walk in 
when you were saying ``management by walking around,'' which, 
as you know, I very much believe in. So I think that's all to 
the good.
    Senator Wyden, I understand, asked you a question to which 
you answered very forthrightly, and that was, what would you do 
if an Administration were cherry-picking intelligence, would 
you bring that to this Committee. And I believe your answer was 
yes, you would. Is that correct?
    Admiral McConnell. Yes, ma'am.
    Senator Feinstein. Well, one of the sort of deeply held 
rumors around here is that the intelligence community gives an 
Administration or a President what he wants by way of 
intelligence. What do you think of that?
    Admiral McConnell. Well, if that were the case, it's 
inappropriate. I would be very sensitive to any influence and 
concluding assessment or whatever.
    I have found out, however, I would note, as I've studied 
and prepared for this hearing and moved around the community, 
there's very intense focus on independence. I was particularly 
pleased to find the lessons learned of the 9/11 Commission 
review, the review done by this Committee and the WMD 
Commission are deeply held and have been meaningful to this 
community to improve going forward. These lessons learned are 
believed. And so there's intense focus on getting it right.
    Senator Feinstein. Thank you.
    Now, tomorrow I understand a National Intelligence Estimate 
on Iraq, both a classified and unclassified version, is coming 
out. Have you reviewed those documents?
    Admiral McConnell. No, ma'am, I have not.
    Senator Feinstein. You haven't?
    Admiral McConnell. No, ma'am.
    Senator Feinstein. Well, I must say I'm rather surprised by 
that, because it really was the NIE on Iraq which was the basis 
on which many of us voted to approve the authorization for use 
of military force, and of course many things were wrong, both 
bad intelligence and wrong intelligence.
    And we are faced with seeing a Navy man appointed to 
CENTCOM, carriers moving into the area, and an NIE coming out 
on Iraq. I'd like to ask that you take a look at that NIE, if 
possible, before we see it, and be able to provide some 
assurance that the judgments in the NIE have been red-teamed 
and are sound judgments. Will you try and do that, please?
    Admiral McConnell. Ma'am, as I understand it, it's 
scheduled to come out tomorrow, probably pretty early. I have 
been in the room when people have talked about the NIE. I know 
the process has been coordinated widely throughout the 
Government. I know that it has been subjected to review and 
challenges and red teaming, but I don't know very much about 
the substance. That's what I meant by actually sitting and 
digesting the document. But I will take a look at it at first 
opportunity.
    One of the things that I didn't do in preparing for this 
hearing is, as I mentioned in my opening statement, is to 
assume that I would be confirmed and then actually engage in 
all the substantive matters. So if I'm confirmed, you can rest 
assured that that would be my primary focus. Anything that's of 
this importance that we apply the lessons learned that we just 
discussed, it has to be challenged and considered with 
alternative futures, competitive analysis, red teaming to make 
sure we get it to the right place.
    Senator Feinstein. Well, will you be able to find out if 
that has been done, the red teaming, the competitive analysis 
on the NIE we are about to receive?
    Admiral McConnell. I am told it has happened. I will verify 
that as soon as I'm eligible to do that if I'm confirmed by 
this Committee.
    Senator Feinstein. I appreciate that. Thank you very much.
    Admiral McConnell. Yes, ma'am.
    Senator Feinstein. Thanks, Mr. Chairman.
    Chairman Rockefeller. Thank you, Senator Feinstein.
    Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman.
    First, I also enjoyed very much, Admiral, our meeting, and 
appreciate the opportunity to ask you some questions here.
    I reviewed some of your writings and public statements, 
and, frankly, the ones I saw encouraged me. In 2000, you wrote 
that we need a public debate about how we conduct signals 
intelligence while protecting the rights and freedoms and 
privacy of our citizens, particularly as Congress writes the 
laws governing the use of SIGINT capabilities.
    And last summer, you stated that, ``We have to be more 
open. I understand we accept risk. My profession was to try to 
mitigate risk, but it is something we must do as a Nation.'' 
And I couldn't agree more with those sentiments. The 
intelligence community has many secrets, but the law cannot be 
secret.
    Admiral McConnell, I've been deeply troubled by this 
Administration's illegal warrantless wiretapping program. There 
is no higher priority than the fight against terrorism, but I 
still think that we can fight terrorism while remaining true to 
American values and the rule of law.
    If confirmed, will you commit to inform the full committee 
of any past, ongoing, or future instances in which the 
President has asserted constitutional authority to circumvent a 
statute?
    Admiral McConnell. Senator, before you came in, I responded 
to a similar question, and how I'd like to respond to that is, 
both my nature and what I believe deeply and what I've done in 
the past, in a general philosophy, is to work with these 
committees and ensure that they have everything that they need 
for the role that the Constitution gives this body for 
oversight.
    So I would pledge to you that I would do everything in my 
power to get you the information that you need.
    Now, that said, there is an Executive branch that has 
interpreted information in a way that perhaps wasn't fully 
agreed on this Committee. So I work in that environment, 
acknowledging that in some cases I would not control the 
documents or make the decision. But I can make the 
recommendations, and my recommendations would be to share with 
this Committee everything needed for you to do your job.
    Senator Feingold. And I want to be clear. I'm talking here 
about a situation where the President has asserted 
constitutional authority. I'm not talking about the guts of 
this stuff. I'm talking about the legal arguments. It seems 
hard for me to believe that there would be a need to withhold 
from the Committee instances in which that has been asserted--
in other words, the fact of the assertion and the materials 
that related to it.
    So I guess what I'd ask, in a different way, is, will you 
advocate in all cases that the DNI follow the letter and the 
spirit of all applicable law?
    Admiral McConnell. Absolutely, Senator. I would always 
follow the law.
    Senator Feingold. Our involvement in the war in Iraq is 
both unsustainable and counterproductive and, I think, needs to 
come to an end. But as we redeploy--and inevitably, at some 
point, we will redeploy--the situation in Iraq and the region 
will evolve, and we will need intelligence strategies 
applicable to a post-occupation environment.
    Last week the Deputy DNI for Collection testified that 
there has been some development of these strategies. Will you 
encourage and pursue those efforts?
    Admiral McConnell. Yes, Senator, I would. This is a vital 
region of the world, and important to the United States, for 
many, many reasons. So I would revisit that issue if I'm 
confirmed, to focus on it as one of the areas that we need to 
make sure we're looking at it in all dimensions.
    Senator Feingold. The law requires that the National 
Counterterrorism Center conduct strategic operational planning 
for counterterrorism activities, including military activities, 
and assign roles and responsibilities to various departments 
and agencies. How can the NCTC and the DNI ensure that the 
roles and responsibilities assigned to the Department of 
Defense are adhered to?
    Admiral McConnell. The role of the leader of the NCTC is 
that he reports directly to the President for those matters, 
the way you described them.
    I would work with Admiral Redd, who is the head of the 
NCTC, and with Secretary Gates, to make sure that we are doing 
what it is we need to do to coordinate and to provide the 
appropriate leadership to get those things done.
    Senator Feingold. Do we need to take another look at the 
DNI's so-called advisory tasking authority with regard to the 
Department of Defense?
    Admiral McConnell. I'm not prepared to say that we need to 
revise it just yet. I am prepared to say that I am concerned 
about several of the issues, and I won't be shy about coming 
back to this Committee to ask for help if I think that I need 
that help and I can't get it some other way. So far, my dialog 
inside the Executive branch has been very favorable to 
recognizing the issues, and we have agreement that we're going 
to work them. If we can solve them, then I won't bring the 
problem to you. But if I need help, I won't be shy.
    Senator Feingold. Thank you, Admiral.
    Thank you, Mr. Chairman.
    Chairman Rockefeller. Thank you, Senator Feingold.
    Admiral, you were asked about Russia, and said that you 
felt that we need to know more about that and have a group of 
people working on it. Actually, that comports exactly with what 
Vice Chairman Bond and I jointly view as part of what we should 
be doing on our Committee--that we've spent so much time 
looking back, and we still have some more of that to do, but 
that the thrust should be looking forward and figuring out a 
way to make things come together, for the security of our 
country, through intelligence.
    Last year, the Committee launched a review of intelligence 
in Iran, among a number of other countries. We're looking at a 
lot of different trouble spots, Admiral, and a lot of potential 
trouble spots, trying to get out 10 years ahead and figure out 
what's coming up. So Vice Chairman Bond and I agreed on this 
effort, and the effort's under way.
    Unfortunately, our staff has been denied access to the 
intelligence documents underlying key analytical judgments of 
the intelligence community on Iran. Now we're making a good-
faith effort--no product in sight, necessarily. We're just 
doing the work. This has gone on for almost 5 months. Our 
Committee has now been told that nothing will happen until you 
personally can make a decision. Were you aware of that?
    Admiral McConnell. No, sir, I wasn't.
    Chairman Rockefeller. OK.
    Admiral McConnell. I read a press article--I think it was 
this morning--about asking for some information, but I wasn't 
aware of the specifics the way you just outlined them.
    Chairman Rockefeller. The type of intelligence documents 
that I'm referring to were given to the Committee and reviewed 
as a central part of its 9/11 investigation and its Iraq 
intelligence review. These are also documents we will want to 
review for future studies, obviously. Now I don't want to 
review the rationale or the history for the continued 
withholding of these documents. I want a commitment from you 
that you'll provide these documents to us expeditiously, if 
confirmed.
    Admiral McConnell. Yes, sir. As you and I discussed 
privately, and as I testified earlier, my philosophy is to 
provide you with what you need to do your oversight 
responsibilities.
    Chairman Rockefeller. Thank you, sir. Let me just say 
generally, if you are not in a position to give that kind of 
commitment today, if you'd answered the question differently, I 
want you to feel free to come discuss with Vice Chairman Bond 
and myself the reasons for that, because we want to hear that--
not necessarily a hostile meeting, but just an informative type 
of meeting.
    A question on the Deputy DNI position. That position has 
been vacant since last May, and that's understandable in many 
ways. Mike Hayden left that position. Can we expect a 
nomination or a suggestion by you for that position fairly 
shortly?
    Admiral McConnell. Senator, that will be one of my highest 
priorities. When I looked at this job, being the principal 
intelligence adviser to the President and his senior staff, 
that's a pretty full-time job. And paying attention to this 
community the way I think it needs to have some attention and 
to solve some of these issues is a full-time job. So I will 
push as hard as I can to find the right person to fill that 
spot, and I hope to do it as quickly as possible.
    Chairman Rockefeller. You have a military background--
actually, you have many backgrounds, and that's all good. John 
Negroponte basically had a foreign relations background and he 
had experience with intelligence and experience with the 
military by definition of the nature of the places where he 
served. But in your case, you definitely have a military 
background. And do you think that there's importance in having 
a deputy who, therefore, is not associated with the military?
    Admiral McConnell. My preference would be to have someone 
who was in the community from the civilian side, not 
necessarily military. I wouldn't rule it out. But the 
preference would be someone with long experience, particularly 
working the current issues, who has standing and stature that 
could help me, if I'm confirmed, administer this community.
    Chairman Rockefeller. I regret to say that my time has run 
out. And I think somebody's manipulating this clock because 
that much time hasn't gone by.
    Admiral, we have indeed been graced by the presence of 
close to a supreme person, who used to be Chairman of the 
Government Operations Committee and is now Ranking Member, and 
I think we will be joined by her Chairman here shortly.
    But this is a signal moment in the history of the 
intelligence community, and we welcome you, Senator Collins, in 
every respect.
    Senator Collins. Thank you very much, Mr. Chairman.
    Chairman Rockefeller. I may have overstated that a little 
bit.
    Senator Collins. Mr. Chairman, I know that you have Members 
of your own Committee here, and I just want to make sure that 
they've had the opportunity to question before this interloper 
begins. You and your Vice Chairman very kindly invited Senator 
Lieberman and me to come today, and I very much appreciate the 
opportunity. But if you have your other Members who are eagerly 
waiting to question, I'd be glad to----
    Chairman Rockefeller. They have questioned.
    Vice Chairman Bond. Mr. Chairman, I think since the 
Government Affairs Committee has been so deeply involved in our 
affairs, we on the Committee will be interested to hear the 
views expressed in the questions of the distinguished Ranking 
Member.
    Senator Collins. Thank you very much. And again, my thanks 
to both the Chairman and the Vice Chairman for allowing me to 
come today.
    Senator Lieberman and I worked very hard with the Members 
of this Committee to write the legislation, the Intelligence 
Reform Act, that created the DNI, and I have continued to have 
a great interest in how this position has operated.
    Admiral, I very much appreciated your call to me when you 
were nominated and the opportunity to discuss with you several 
issues of concern, and I want to pick up on those conversations 
today. Efforts to change the culture of the intelligence 
community were an important consideration in the drafting of 
the Intelligence Reform Act. What we wanted to do and what all 
of us share an interest in is creating the same sense of 
jointness that now, many years after the Goldwater-Nichols Act 
has become a reality at the Department of Defense. And clearly 
we're making some progress.
    I remember visiting the Terrorist Threat Integration Center 
prior to the creation of the DNI and talking to John Brennan 
and his expressing great frustration that he couldn't get the 
analysts that he needed from the CIA and from other 
intelligence agencies to staff the Terrorist Threat Integration 
Center. I recently visited the National Counterterrorism 
Center, and it looks like we're making significant progress in 
ensuring that talented analysts from all the intelligence 
agencies spend some time working at the center. But I don't 
think that we've created within the intelligence community the 
kinds of career paths that reward joint service. And I'd like 
to hear your comments on that issue.
    Admiral McConnell. Senator, I couldn't agree with you more. 
I've had the opportunity to live through two major 
transformations, once in the public sector, in the DOD, and 
once in the private sector, in the firm in which I currently 
serve.
    Both of those transformations were significant and they 
were achieved because of the incentives that were created for 
those who would risk getting out of their team or their service 
or their tribe or their association to cross over for 
jointness.
    And one of the things that I will be taking a very hard 
look at is what is it we need to do, if anything, in the 
current legislative package with regard to creating for this 
community what Goldwater-Nichols created for the Department of 
Defense.
    Senator Collins. I think that would help so much. If we can 
have it be a boost to your career to serve in a joint capacity, 
to serve at the National Counterterrorism Center, then, 
obviously, the best and the brightest will seek to do that, and 
that's something that I look forward to working with the 
Members of this Committee. Our Committee has some jurisdiction 
over civil service laws, if you need any assistance in that 
area.
    The second issue that I want to bring up with you is 
information sharing. A major goal of the legislation was to 
remedy the failure to share information both across the 16 
intelligence agencies in the Federal Government, but also with 
their State and local counterparts. And we all know that over 
and over again the 9/11 Commission, the Senate Intelligence 
Committee's report and the WMD Commission pointed to flaws and 
deficiencies in information sharing as being a major problem 
that we need to address.
    And certainly, the intelligence community has made some 
progress on information sharing, but I'm concerned that we 
still haven't built the information networks, the IT security 
enhancements, the analyst training programs that will lead to 
effective information access, both horizontally across the 
Federal Government and vertically. And indeed, I'm in the midst 
of a bit of a battle with the Department of Homeland Security 
right now about the need to share information on chemical 
security--the security of chemical sites--with State and local 
emergency first responders and emergency managers.
    How can we overcome those barriers to sharing information 
that could allow us to connect the dots to make sure that we're 
piecing together all the vital elements of information 
regardless of where they're housed in the Federal Government 
and then appropriately sharing them, where appropriate, with 
State and local officials?
    Admiral McConnell. Senator, my view of how you address your 
second concern goes back to your first concern.
    If we do that, and we do it well, we'll set up the culture 
and the framework around it.
    But with that said, before you came in I had commented that 
many of our rules and regulations today were literally created 
for World War II, and they rolled over to the cold war, and 
they served us well. But this is a different age and a 
different time.
    The way I think about it is an analyst today should be the 
center of the community. The analyst must know their customer, 
and that might be the chief of police in Seattle. You've got to 
know all your customers down to the State and local level. You 
have to know your sources; meaning, what are those sources out 
there? How can you task them? How can you rely on them? What 
confidence can you put in them? And then you have to be able to 
do the analysis. And the way I frame it, it's not a need to 
share; it's a responsibility to provide. So if we can get that 
enculturated in this community, I think we would do a great 
service to the Nation.
    Senator Collins. Thank you very much. And again, my thanks 
to the Chairman and the Vice Chairman. You were very kind to 
allow me to come today with such an important nominee, and I 
thank you both very much for your leadership.
    Chairman Rockefeller. Thank you, Senator Collins.
    Senator Bond, it would be your turn now.
    Vice Chairman Bond. Thank you very much, Mr. Chairman. And 
I thank the distinguished Ranking Member from Government 
Affairs asking good questions that I hope that we will, with 
your help, be able to deal with in future measures.
    Just for the record, I want to comment on a couple of 
things that have been said in response on interrogation to 
using contractors. Because of the cuts in the 1990s in the 
intelligence community budget, it's my understanding that a 
number of subspecialties were not available. And I would see in 
those instances where, if you have somebody from a very unique 
culture that needs to be interrogated, and you do not have in 
the IC someone who could fit that mold, speak that language, 
that a properly supervised use of a contract employee might be 
the only way to get badly needed information.
    And the second point, just for the record, there has been a 
suggestion that the President was improperly asserting 
constitutional authority and violating the law on the terrorist 
surveillance program. As one who has studied constitutional 
law, I would note for the record my disagreement with that. I 
have reviewed the program, and I do not think that's an 
accurate characterization.
    But moving on to questions--and if you have any comments on 
those, I'd welcome them--secondly, on human intelligence, I 
think the current obstacles to obtaining better human 
intelligence include a lack of collection, a lack of 
universally accepted tradecraft, an unwillingness to challenge 
assumptions, overreliance on intelligence from other countries 
or a liaison service, and a lack of sharing among IC agencies.
    The creation of the National Clandestine Service has not 
solved the sharing problem. There appears to be some resistance 
to sharing outside the CIA. How do you assess the current state 
of HUMINT collection, including the effectiveness of the 
National Clandestine Service, and what steps could you as the 
DNI take to improve the IC's human intelligence collection?
    Admiral McConnell. Senator, some years ago, I think 1950s, 
196's, there was a battle in the community with regard to 
authorities for signals intelligence. And decisions were taken 
finally to cause the Director of the National Security Agency 
to have responsibility for signals intelligence, or SIGINT, as 
we refer to it, with regard to establishing priorities 
overseeing the technology, ensuring it's conducted in an 
appropriate way, the training standards are right, and 
investments are correct, and so on.
    In my mind, when I think about HUMINT, I think we would be 
advantaged if we had a similar framework. The National 
Clandestine Service, while they would not conduct all SIGINT, 
should establish the tradecraft and the training and the 
processes so that we at least have common standards, and we 
speak the same language, and we can collaborate and coordinate. 
So it's a model that's worked for us for 40-plus years, and I 
think we probably need to emulate that model in the HUMINT 
community.
    Vice Chairman Bond. Good.
    I have joined with several of my colleagues, from time to 
time in saying, there's an over-classification of certain 
information. And I've raised objections when I've seen that. On 
the other hand, I think that unauthorized disclosure of 
classified information from any source, not only has 
compromised sensitive information and operations, it can 
endanger human sources, undercover or covert operations. And 
there has been a deluge of them, which I believe has 
significantly compromised our ability to collect necessary 
information.
    And one of the things that worries me is there has been no 
prosecution. Nobody who was in the IC or a contractor under 
contract obligations--nothing has happened to them. There 
appears to be developing a culture that it may not be so bad to 
leak sensitive national security information; you may get some 
good speeches and some good book contracts.
    What can you do to change that culture?
    Admiral McConnell. Senator, I think this is one of the big 
challenges for the community today. On the one hand, we have to 
be more open, we have to share information, so on. But I share 
your view that if it is truly sources and methods that risks 
our ability to conduct the Nation's business in this area, that 
we need to be very aggressive in pursuing that. I have been, in 
the past, very vocal and aggressive with regard to going after 
someone who had leaked information that was inappropriate. And 
I must say--this is going back to my previous active duty 
time--there wasn't a commitment to follow up on that.
    So, if I'm confirmed by this Committee, and I'm on the 
inside, I'm going to be pretty aggressive and try to bring some 
of this to closure, because I worry about exactly what you just 
described--a culture of tolerance. So on the one hand, if I'm 
confirmed, I want them to share, I want them to collaborate. On 
the other hand, we have to protect these sources and methods, 
or we will give away our ability to do our business.
    Vice Chairman Bond. Thank you very much, sir.
    Chairman Rockefeller. Thank you, Vice Chairman Bond.
    Senator Wyden.
    SENATOR WYDEN : Thank you very much, Mr. Chairman.
    Admiral, let me pick up where Senator Bond has left off, 
because clearly it's essential to protect sources and methods 
and all that is necessary to protect our national security. But 
my view is that the classification system is absolutely out of 
control, totally out of hand. And you had a situation where 
Governor Kean, the co-chair in the 9/11 Commission, said well 
over half of the documents that he saw that were marked 
``classified'' didn't warrant being classified. So that is one 
of our most recent experiences.
    And while my good friend Senator Bond is here, I want to 
ask you about a matter that he has been very helpful to me on, 
along with Chairman Rockefeller, and that is getting 
declassified the last major report that is available about the 
9/11 murders of our citizens. And that was a report done by the 
CIA Inspector General. We have been trying on this Committee, 
on a bipartisan basis, to get this report declassified for 
several years now. And I have not been given any answer by 
people in the Bush administration as to how keeping this report 
secret is essential to national security.
    So my question to you is, if confirmed, will you work with 
this Committee to have this report declassified?
    Admiral McConnell. Senator, I certainly would work with the 
Committee. I don't want to commit to declassifying until I know 
what the content or the substance of the report is. But I saw a 
press article yesterday that gave me a little feel for it, 
didn't know much about it before that. But I would commit to 
work with this Committee to get to the right place.
    Vice Chairman Bond. Mr. Chairman, if I might just chime in 
here. I have read much of that, and I think it has some very 
important lessons not necessarily much different from what our 
Senate Intelligence Committee report in 2004 laid out, or the 
Joint Intelligence Committee on 9/11. But it seems to me that 
this, once again, points out the problem when you have a DCI 
who doesn't really have power over the community, and he said 
we're at war. And yet, you know, what was done about it?
    I think the IG's report would be very helpful. I know that 
there would be some identities, people who may have been lax 
would be included, but that's what these reports that we have 
put out of our Committee have done. We've talked about them. 
And I personally think that a properly redacted report, this 
information, should be made available. I also believe that 
there are efforts under way in the House to find out what was 
actually on the PDBs that were stuffed in BVDs. And I think 
that information could be very helpful in getting a full 
picture on why we were where we were when 
9/11 occurred.
    And I apologize to my colleague from Oregon for taking up 
his time.
    Senator Wyden. I thank my colleague for his help on this.
    One last question, if I might, Admiral. What can be done to 
get professionally written National Intelligence Estimates to 
this Committee and to the Congress in a timely way?
    We've now seen most recently in the debate now, with 
respect to the new Iraq resolutions, the debate we're going to 
have, that the Congress didn't have that information so that 
you could consider it when you were writing these resolutions. 
I guess we're going to get this, you know, momentarily. We need 
to make sure that we get this information professionally done 
in a timely way.
    What can be done to address that and to speed up the 
delivery of that information?
    Admiral McConnell. Senator, all I can tell you is I would 
look at the process. I'm being sensitive to your question, 
understanding your question, agreeing with your need to have 
the information to make the decisions you have to make.
    So I would take a look at it, and see if I could improve 
the timeliness in any way.
    Senator Wyden. Mr. Chairman, thank you for the additional 
time.
    Admiral, I intend to support your nomination.
    Admiral McConnell. Thank you, sir.
    Senator Wyden. Thank you.
    Chairman Rockefeller. Admiral, I have couple of pro forma 
wrap-up questions to ask. The Vice Chairman may have more 
questions to ask. I have one more I do want to ask.
    It's baffling to me the way--and understandable in many 
respects, because it makes for fast-breaking news, and all the 
rest of it, and excitement--but fundamentally, the Constitution 
says, we're meant to protect our people. And that's called 
homeland security and American individual responsibility. The 
homeland security part is a department. It is doing some very 
good work in some areas. It also, to me, has the sense of sort 
of wandering around on its own, without any real friends in 
high places, without many real friends, particularly, in OMB, 
and is woefully underfunded.
    I often think of my own State, which is not among the 
Nation's largest, but we have a port in Huntington, West 
Virginia, which is actually the seventh-largest port in the 
United States of America. Now one of the reasons for that is 
that from the Ohio River all the way from Pittsburgh to 
Cincinnati, there are scores and scores of chemical plants and 
electric power plants which obviously back up onto the Ohio, as 
all of them must for water supply. There was a total of two 
fast, armed speedboats which were available to protect that 
vast amount of territory. And my senior colleague--Senator 
Byrd, who chairs Appropriations--went to work and got one 
additional boat. That's extraordinary to me.
    I read in The New York Times this morning that it was 
decided that atomic power plants--and I think that's also a 
part of our future with respect to global warming, and also 
just the need--that atomic power plants didn't have to put up a 
particular kind of metal shield, because there would be a 
sufficient buffer against a plane that tried to crash into them 
and so forth.
    I have no idea whether that was right or whether it was 
wrong. But what occurs to me is that the intensity of focus on 
Iraq resolutions and what's going to happen in Iran and what's 
going on in Indonesia--all of that--is profoundly a part of our 
work, but also a part of your work is homeland security.
    And I don't know the secret to that.
    Part of it is that we now are in a pay-as-you-go basis. The 
Democrats, quite amazingly, decided to do that. It had not been 
our history, but is evidently our future, because the Nation's 
finances--public finances--are in shambles. So the people who 
are going to pay the price for that are at the local level.
    Now, I want to extend my remarks for a moment. I have had 
each year, for the last number of years, what I call homeland 
security summits in West Virginia. I have been amazed and moved 
by how sheriffs and psychologists and all the people that you 
can think of involved--superintendents of schools--flooded from 
all over the State at their own expense to in fact, in most 
cases, come to a rather distant part of West Virginia, not far 
from Washington.
    And we divide them up into classes, and we have people from 
the FBI and other places come in to talk to them. And their 
hunger is palpable. Their frustration is palpable. It was 
true--not necessarily, but at least 3 years ago--that of the 67 
State police outposts in West Virginia, only 7 of them were 
connected to the Internet. The use of the telephone or simply 
getting to 911 was commonplace, is commonplace throughout the 
State.
    Now, we have a state apparatus, a very aggressive person in 
charge of homeland security on behalf of our Governor, who 
testified recently before us. We also had the DC acting police 
commissioner, an extraordinary young woman, and her frustration 
here right in the middle of everything, at her inability to be 
able to contact proper authorities to be able to respond, in 
her case with a rather strong sense that this city is an 
obvious target. We're just not paying attention, and the papers 
and the television don't pay attention because it's called 
``local'' business. Well, that's where all Americans live, in 
local places.
    And I am just interested in your thoughts about that, sort 
of the way it's degraded in its priority when it in fact, is 
the essence of what our Constitution requires of us as 
representatives.
    Chemical people really don't want Government regulations 
about what their security should be. And I can remember going, 
after giving an impassioned speech to all the chemical plant 
directors of my State, went back in about a year and they had 
put sidearms on people opposite from the river, where the 
workers entered the plant, and that was about it. Now, that's 
not fair to them at this point, but it was a fact, and that was 
clearly after 9/11.
    So I'm just interested in your thoughts on that and your 
sense as being, hopefully, DNI, how that would bear upon the 
way you spent your time.
    Admiral McConnell. Well, Senator, as I commented in my 
opening remarks, and I think I included in some of my written 
responses, this ability to think domestically is, I believe, 
one of the biggest challenges for the DNI and for the 
community. We are trained for years to think external, foreign. 
That's our whole mindset. And as you know, the legislation and 
the follow-on process created the National Security Branch of 
the FBI and, as you're well aware, the Department of Homeland 
Security.
    I think with the terrorists that are plotting today to 
carry out terrorist acts, they're going to try to do it 
internal to the United States.
    Now, from a resource point of view, unfortunately that's 
going to be beyond my reach to be able to do very much about 
it, but with regard to agreeing with the way you outlined it 
and agreeing to visit with these people, championing their 
cause, talk to them, that's something I'm very much interested 
in.
    One of the things that was mentioned earlier about my role 
in the private sector, I chair a group called the Intelligence 
National Security Alliance. In that group--which is a 
nonprofit; it just looks at problems and has a dialog--we have 
law enforcement officials. And what we are attempting to 
sponsor is something similar to what you sponsored in the 
homeland security summit. It's to bring the right players 
together and have a dialog and have some discussion so that 
they could contact their representatives, either in the 
Executive branch or on the Hill, to make the point because I 
think these things are areas that we need to address in a very 
serious way.
    Chairman Rockefeller. Thank you, Admiral. The Vice Chairman 
has additional questions.
    Vice Chairman Bond. Mr. Chairman, you raised the question 
with the Admiral earlier about working with the Department of 
Defense, and we all know the tensions between the DOD and the 
DNI.
    We understand that you have a long background and history 
with Secretary Gates, General Clapper and others. Do you 
anticipate that Congress will need to establish clear lines of 
authority or responsibility? Or do you believe you can resolve 
all those among yourselves?
    Admiral McConnell. Senator, that's a question in my mind. 
I'm not prepared yet to tell you that----
    Vice Chairman Bond. Well, we would just request that--
obviously you have the background for a very close 
collaborative relationship. If there are questions that cannot 
be resolved, we would like to know about it, and we'll try to 
help resolve them.
    Admiral McConnell. I won't be shy about taking a firm 
position. I'll engage, and if we make progress, that's the 
preferred way. But I would engage, and if I had to take a 
position, I would take the position, and if I need help, I will 
come ask for help.
    Vice Chairman Bond. Thank you.
    Chairman Rockefeller. Admiral, do you agree to appear 
before the Committee here or in other venues, when invited?
    Admiral McConnell. Yes, Senator, I do. And I hope to visit 
with you when I'm not invited. I'd like to make it a regular 
event to come see you every few weeks or so, just to have a 
dialog about what's happening, and what I see, and what's on 
your mind.
    Chairman Rockefeller. Do you agree to send intelligence 
community officials to appear before the Senate--before our 
Committee, and designated staff, when invited?
    Admiral McConnell. Yes, sir.
    Chairman Rockefeller. Do you agree to provide documents or 
any material requested by the Committee in order to carry out 
its oversight and its legislative responsibilities?
    Admiral McConnell. I do, sir, with the caveats that we 
mentioned earlier, that sometimes it would be something beyond 
my control. But certainly provide you what you need to do your 
oversight responsibilities.
    Chairman Rockefeller. Will you ensure that all intelligence 
community elements provide such material to the Committee, when 
requested?
    Admiral McConnell. Yes, sir.
    Chairman Rockefeller. Admiral, that wraps it up. I have to 
say that I think your testimony has given me an enormous sense 
of hope and confidence. The tougher the question, the more 
calmly you answer it. And, as Vice Chairman Bond indicated when 
he was making his opening remarks, there's just never been a 
more important time for us to have you in place. The 
responsibilities are overwhelming. It's not an easy climate 
here in Washington right now. It strikes me that you have 
precisely the kind of personality, experience, strength, 
determination to accomplish the task. I thank you for 
appearing.
    And this hearing is adjourned.
    Admiral McConnell. Thank you, Mr. Chairman.
    [Whereupon, at 4:37 p.m., the hearing adjourned.]
                         Supplemental Material
[GRAPHIC] [TIFF OMITTED] 38655.001

[GRAPHIC] [TIFF OMITTED] 38655.002

[GRAPHIC] [TIFF OMITTED] 38655.003

[GRAPHIC] [TIFF OMITTED] 38655.004

[GRAPHIC] [TIFF OMITTED] 38655.005

[GRAPHIC] [TIFF OMITTED] 38655.006

[GRAPHIC] [TIFF OMITTED] 38655.007

[GRAPHIC] [TIFF OMITTED] 38655.008

[GRAPHIC] [TIFF OMITTED] 38655.009

[GRAPHIC] [TIFF OMITTED] 38655.010

[GRAPHIC] [TIFF OMITTED] 38655.011

[GRAPHIC] [TIFF OMITTED] 38655.012

[GRAPHIC] [TIFF OMITTED] 38655.013

[GRAPHIC] [TIFF OMITTED] 38655.014

[GRAPHIC] [TIFF OMITTED] 38655.015

[GRAPHIC] [TIFF OMITTED] 38655.016

[GRAPHIC] [TIFF OMITTED] 38655.017

[GRAPHIC] [TIFF OMITTED] 38655.018

[GRAPHIC] [TIFF OMITTED] 38655.019

[GRAPHIC] [TIFF OMITTED] 38655.020

[GRAPHIC] [TIFF OMITTED] 38655.021

[GRAPHIC] [TIFF OMITTED] 38655.022

[GRAPHIC] [TIFF OMITTED] 38655.023

[GRAPHIC] [TIFF OMITTED] 38655.024

[GRAPHIC] [TIFF OMITTED] 38655.025

[GRAPHIC] [TIFF OMITTED] 38655.026

[GRAPHIC] [TIFF OMITTED] 38655.027

[GRAPHIC] [TIFF OMITTED] 38655.028

[GRAPHIC] [TIFF OMITTED] 38655.029

[GRAPHIC] [TIFF OMITTED] 38655.030

[GRAPHIC] [TIFF OMITTED] 38655.031

[GRAPHIC] [TIFF OMITTED] 38655.032

[GRAPHIC] [TIFF OMITTED] 38655.033

[GRAPHIC] [TIFF OMITTED] 38655.034

[GRAPHIC] [TIFF OMITTED] 38655.035

[GRAPHIC] [TIFF OMITTED] 38655.036

[GRAPHIC] [TIFF OMITTED] 38655.037

[GRAPHIC] [TIFF OMITTED] 38655.038

[GRAPHIC] [TIFF OMITTED] 38655.039

[GRAPHIC] [TIFF OMITTED] 38655.040

[GRAPHIC] [TIFF OMITTED] 38655.041

[GRAPHIC] [TIFF OMITTED] 38655.042

[GRAPHIC] [TIFF OMITTED] 38655.043

[GRAPHIC] [TIFF OMITTED] 38655.044

[GRAPHIC] [TIFF OMITTED] 38655.045

  

                                  <all>

</pre></body></html>
